  DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General



    REVIEW OF THE TRANSPORTATION SECURITY
     ADMINISTRATION’S USE OF PAT-DOWNS IN
            SCREENING PROCEDURES

                 (REDACTED)




              Office of Audits
OIG-06-10                     November 2005
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
DHS oversight responsibility to promote economy, effectiveness, and efficiency within the
Department.

This report represents an abbreviated version of our sensitive security information report addressing
the strengths and weaknesses of the Transportation Security Administration’s use of pat-downs as
part of its screening procedures. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The information contained in this report has been developed to the best knowledge available to us,
and has been discussed in draft with appropriate management officials. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Contents



  Executive Summary ....................................................................................................................... 1

  Background ......................................................................................................................................2

  Results of Audit .…..……………………………………………………………………………...3

      Screeners Followed SOP When Conducting Pat-Downs............................................................3

      Pat-Down Screening Training ....................................................................................................4

      Investigation and Resolution of Pat-Down Complaints..............................................................5


Appendices
  Appendix A:                 Purpose, Scope, and Methodology.....................................................................7
  Appendix B:                 Major Contributors to This Report ....................................................................9
  Appendix C:                 Report Distribution ..........................................................................................10

Abbreviations
  DHS                         Department of Homeland Security
  FSD                         Federal Security Director
  IMS                         Inquiry Management System
  LAX                         Los Angeles International Airport
  OIG                         Office of Inspector General
  PMIS                        Performance Management Information System
  SOP                         Standard Operating Procedures
  TSA                         Transportation Security Administration




                                   Review of TSA’s Use of Pat-downs in Screening Procedures
                                                                               Audit
OIG
Department of Homeland Security
                                                                               Report
Office of Inspector General

Executive Summary
                This report presents an abbreviated version of our review of the
                Transportation Security Administration’s (TSA) use of pat-downs in screening
                procedures.

                In September 2004, the TSA made changes to strengthen its screening
                procedures in response to the August 2004 midair explosions of two Russian
                airliners, believed to have been caused by Chechen women transporting
                explosive devices concealed under their clothing. New passenger screening
                procedures included more frequent use of pat-down inspections, more latitude
                for screeners to refer individuals for additional screening, and increased use of
                explosives trace detection machines for passenger carry-on bag inspections.

                We conducted a review of the additional procedures at the request of
                Congressman Edward J. Markey because of his concern that TSA screeners
                subjected some female air travelers to overly intrusive pat-down inspections
                as part of the additional screening process. Our objectives were to determine
                whether: TSA screeners adequately advised passengers of their rights under
                the screening process; TSA appropriately accommodated requests related to
                those rights; additional screening practices were applied proportionately to
                males and females; screeners were adequately trained to perform pat-down
                inspections; and TSA had procedures in place to investigate and resolve
                complaints about the process.

                Overall, TSA screeners are applying pat-down procedures properly. Screeners
                advised passengers of their rights prior to conducting pat-down inspections,
                explained why the additional screening was necessary, and conducted pat-
                down inspections according to the training received on the revised additional
                screening procedures. Specifically, screeners used the back of their hand
                when patting down sensitive areas; screeners conducting pat-down inspections
                were of the same gender as passengers; screeners offered private screening
                locations to passengers subject to pat-down inspections; and female
                passengers undergoing pat-down inspections were not unnecessarily delayed.
                In February 2005, TSA developed its “Pledge To Travelers” to better inform
                passengers of their rights and to emphasize its commitment to customer
                service.


                   Review of TSA’s Use of Pat-downs in Screening Procedures

                                            Page 1
             In December 2004, TSA modified the September 2004 additional screening
             procedures to reflect a more targeted, less intrusive pat-down inspection.
             Following implementation of the modified procedures, pat-down complaints
             received by TSA declined significantly. During the period November 22,
             2004, through January 2, 2005, TSA received 79 pat-down complaints per
             million passengers selected for pat-downs. From January 3, 2005, through
             February 28, 2005, TSA received 13 pat-down complaints per million
             passengers selected for pat-downs. To further address screener pat-down
             performance TSA provided additional training to screeners including
             briefings, training aids, and through its On-line Learning Center.

             TSA follows procedures for investigating and resolving pat-down complaints.
             Federal Security Directors (FSDs) were investigating and resolving pat-down
             complaints according to SOP. TSA monitors the number and nature of the
             complaints to track trends and identify areas of concern that may require
             special attention or corrective action.

             We are not making any recommendations in this report because screeners are
             complying with TSA’s additional screening SOP, and TSA has taken action to
             make additional screening less intrusive and to resolve pat-down complaints.
             TSA management concurred with our findings and did not provide written
             comments.

Background

             Passenger screening is critical to the security of the nation’s aviation system,
             particularly after the events of September 11, 2001. TSA is responsible for all
             passenger and baggage screening to ensure that weapons and other prohibited
             items are not brought on board aircraft. Passengers refusing to be screened
             are not permitted to board an aircraft.

             From October 1, 2004, through February 28, 2005, TSA processed 289
             million passengers, of which 46 million, or 16%, were selected for additional
             screening. Of these, only 1,471 or .003%, complaints were filed.

             We conducted our fieldwork from December 2004 through March 2005 at 10
             airports to determine screeners’ compliance with additional screening
             procedures. A more detailed description of our purpose, scope, and
             methodology is provided as Appendix A.




                Review of TSA’s Use of Pat-downs in Screening Procedures
                                          Page 2
Results of Audit

   Screeners Followed SOP When Conducting Pat-Downs
              Generally, screeners followed TSA’s prescribed procedures for conducting pat-
              downs. From December 2004 through February 2005, we conducted tests of
              TSA’s passenger pat-down screening procedures at 10 airports throughout the
              country to determine whether TSA screeners adequately advised passengers of
              their rights, and conducted pat-down inspections appropriately and according to
              revised pat-down procedures. Specifically, screeners advised passengers of
              their rights prior to conducting pat-down inspections, and explained why the
              additional screening was necessary. Accordingly, female passengers
              undergoing pat-down inspections were not subjected unnecessarily to overly
              intrusive search procedures; were not targeted by screeners for search; and were
              not unnecessarily delayed. Approximately 64% of the testing was performed
              by female auditors.

               Also, a TSA contractor conducted a customer satisfaction survey to measure
               screener performance and to gather data that could be used to improve
               performance. Results of the survey showed that air travelers gave consistently
               high marks to TSA security screeners. Between 80% and 95% of passengers
               gave positive responses when asked about seven aspects of the federal security
               screening process, which included thoroughness and courtesy of screeners.

               TSA evaluated the effectiveness of its September 2004 pat-down procedures,
               including customer feedback, and as a result, revised pat-down procedures.
               The number of pat-down complaints received by TSA declined significantly
               after the December 2004 procedures were put in place. TSA reported 1,471
               pat-down complaints from October 1, 2004, through February 28, 2005.
               During the period of November 22, 2004, through January 2, 2005, TSA
               received 79 pat-down complaints per million passengers selected for pat-
               downs. From January 3, 2005, through February 28, 2005, TSA only received
               13 complaints per million passengers selected for pat-downs.

               In February 2005, TSA unveiled its “Pledge To Travelers.” TSA developed
               the Pledge so travelers would know what to expect and to dispel concerns they
               may have regarding the screening process. According to TSA, the Pledge is a
               tangible reminder of TSA’s promise to the traveling public to provide top-
               notch security and customer service. The Pledge is displayed at airports and
               posted on TSA’s website. The Pledge consists of the seven following points:




                   Review of TSA’s Use of Pat-downs in Screening Procedures
                                             Page 3
                                TSA PLEDGE TO TRAVELERS
              1. We pledge to do everything we can to ensure that your flight is secure.
              2. We pledge to treat you with courtesy, dignity, and respect during the
                 screening process.
              3. We pledge that if additional screening is required, we will communicate and
                 explain each step of the additional screening process.
              4. We pledge to honor your request for a private screening at any time during
                 the screening process.
              5. We pledge that if additional screening of your person is required, it will be
                 provided by a screener of the same gender.
              6. We pledge to accept all feedback and to consider your input as a vital part of
                 our effort to continually enhance the screening experience.
              7. We pledge to respond to your comments in a timely manner.

Pat-Down Screening Training

             Additional screening training was provided to screeners via briefings, training
             aids, videotapes, compact discs, and through TSA’s Online Learning Center.
             The training included graphical demonstrations of the general techniques for
             conducting pat-down inspections. Screeners were also provided with a script
             to follow regarding what information to tell the passengers. Along with
             training on security procedures, each screener receives training on
             professional and courteous conduct to reduce the inconvenience to the public.
             TSA recently initiated a review course for all screeners to reemphasize TSA’s
             customer service and courteous conduct goals.

             Based on our tests, screeners were professional and respectful and did not use
             unnecessary or overly intrusive pat-down methods. In addition, according to a
             TSA customer satisfaction survey, between 80% and 95% of passengers gave
             positive responses when asked about seven aspects of the federal security
             screening process, which included thoroughness and courtesy of screeners as
             well as confidence in TSA keeping air travel secure.

             According to TSA, many of the pat-down complaints involved passengers’
             objection to the pat-down process itself, not because screeners conducted the
             pat-down inspection incorrectly or inappropriately. TSA officials said that
             screeners were adequately trained to conduct pat-down inspections in a
             professional, respectful manner, while maintaining a high level of security.

             Screeners are evaluated on their performance through written tests, annual
             certifications, covert testing conducted by TSA officials, mid-year and annual
             performance evaluations, and through observation by screening supervisors.
             Screening Checkpoint SOP are available for screeners to review to ensure that
             pat-down inspections are conducted according to SOP.




                Review of TSA’s Use of Pat-downs in Screening Procedures
                                          Page 4
Investigation and Resolution of Pat-Down Complaints
             TSA has processes to investigate and resolve pat-down complaints. TSA’s
             website provides information to passengers for contacting TSA if they believe
             the pat-down inspection was done inappropriately. Passengers can file pat-
             down complaints with the TSA Contact Center, the External Compliance
             Division within the Office of Civil Rights, and at the airports. TSA tracks pat-
             down complaints through its Inquiry Management System (IMS) and its
             Performance Management Information System (PMIS). Pat-down complaints
             are forwarded to the Operational Research Analysis team and the FSDs for
             further review and action. TSA monitors the number and nature of complaints
             that it receives to track trends and identify areas of concern that may require
             special attention.

             Passengers with pat-down complaints and comments may contact TSA
             through the TSA Contact Center (center) by telephone, email, or letter. The
             center reviews and evaluates all pat-down complaints and comments. The
             center employs a team of 40-50 contractors working 24 hours a day, 7 days a
             week. The center, which has pre-approved talking points to provide
             passengers with additional information on TSA’s pat-down policies and
             procedures, records pat-down complaints in IMS. Upon receipt of a pat-down
             complaint, the center contacts the complainant to acknowledge receipt of the
             complaint and notifies the complainant that the complaint will be forwarded to
             the appropriate TSA officials for investigation and resolution. The center
             forwards all pat-down complaints to the Operational Research Analysis team
             for analysis. The Operational Research Analysis team then forwards the
             complaint to the appropriate FSD for further investigation.

             Pat-down complaints that involve allegations of discrimination, based on race,
             color, national or ethnic origin, religion, or gender, are forwarded to TSA’s
             External Compliance Division, within the Office of Civil Rights. The
             External Compliance Division forwards the allegations to the appropriate
             FSDs to conduct an investigation. The Division makes an independent
             evaluation of the results of the investigation and, where appropriate,
             recommends remedial action. If the investigation indicates a possible
             systemic problem, the Division may recommend appropriate policy and
             procedural changes. Discrimination complaints received directly by the
             External Compliance Division are maintained in a separate database.

             Passengers also may file pat-down complaints or other travel related concerns
             at the airport, either in person or by completing a feedback form. Various
             TSA officials informed us that these complaint forms were readily available at
             the airport checkpoint; however, we did not observe them during our site
             visits. Pat-down complaints received by the airport are recorded in PMIS. In
             March 2005, TSA released a new PMIS version that includes a specific



                Review of TSA’s Use of Pat-downs in Screening Procedures
                                          Page 5
complaint category for pat-down complaints. This PMIS revision allows TSA
to more accurately capture the number and nature of pat-down complaints.

FSDs are responsible for investigating and resolving pat-down complaints.
On receipt of a pat-down complaint, FSDs or their representatives:
(1) contact each complainant to obtain additional information regarding the
complaint; (2) interview the screener and other airport personnel to obtain
additional information; (3) review incident reports and security video tapes, if
available, to determine whether the pat-down inspection was conducted
according to SOP; and (4) recommend additional training or disciplinary
action, if necessary.

Our review of pat-down complaints received by TSA indicated that many of
the complaints resulted from passengers who: were unhappy with the general
pat-down policy; believed the pat-down inspection included inappropriate
touching and that the search was intrusive and humiliating; had privacy
concerns; and believed that the screeners were unprofessional or rude. We
found no evidence that passengers were retaliated against by TSA when they
expressed concern about the additional screening practices.

TSA is piloting new technology to detect weapons and explosives, which
should eventually result in fewer pat-down inspections.




   Review of TSA’s Use of Pat-downs in Screening Procedures
                             Page 6
                Appendix A
                Purpose, Scope, and Methodology




Purpose, Scope, and Methodology

                We conducted this review at the request of Congressman
                Edward J. Markey, a member of the House of Representatives, Committee
                on Homeland Security, in response to his concern that TSA screeners at
                airport checkpoints were subjecting some female travelers to intrusive pat-
                down inspections as part of TSA’s additional screening process.

                The overall objectives of the audit were to determine whether:

                •   TSA adequately advised passengers of their rights under the screening
                    process, and appropriately accommodated requests related to those
                    rights;
                •   Additional screening practices were applied proportionately to males
                    and females;
                •   Screeners were adequately trained to perform pat-down inspections;
                    and,
                •   TSA had procedures in place for investigating and resolving
                    complaints about the process.

                To accomplish our review, we conducted fieldwork at TSA headquarters
                in Arlington, Virginia. We reviewed TSA’s additional screening
                procedures, pat-down complaints, additional screening training
                information, agency reports on pat-down complaints, and other relevant
                documentation pertaining to the additional screening process.

                To obtain a thorough understanding of additional screening policies and
                procedures, we interviewed key TSA officials, including the Chief
                Operating Officer; the Ombudsman; the Director, Aviation Support,
                Aviation Operations; the Branch Chief, Office of Strategic Management
                and Analysis, Performance Management Branch; officials from the Office
                of Workforce Performance and Training; officials from Operational
                Research and Analysis; and an official from the Office of Civil Rights.
                We also interviewed the Director, Technology and Liberty Program, of the
                American Civil Liberties Union, to obtain his organization’s concerns
                regarding pat-down complaints.

                In addition we interviewed, via telephone, the FSDs at the Denver
                International Airport, the Kansas City International Airport, and the Palm
                Beach International Airport because those three airports received the most
                pat-down complaints from October 1, 2004, through February 28, 2005.



                    Review of TSA’s Use of Pat-downs in Screening Procedures
                                            Page 7
Appendix A
Purpose, Scope, and Methodology




We also interviewed, by telephone, the FSD at the Los Angeles
International Airport (LAX) because more passengers and baggage are
screened at LAX than any airport in the United States. Collectively, these
four airports accounted for about 19% of all pat-down complaints received
from October 1, 2004, through February 28, 2005.

We observed and evaluated additional screening practices at 10 airports
nationwide. We completed 97 questionnaires after completing the
screening process. The questionnaire included 15 questions designed to
determine whether screeners were conducting pat-downs according to
revised SOP. The airports that we evaluated included: Dallas/Fort Worth
International Airport; Honolulu International Airport; the Kansas City
International Airport; LaGuardia Airport; Miami International Airport; the
Norfolk International Airport; Oakland International Airport; Ronald
Reagan Washington National Airport; San Francisco International Airport;
and Washington-Dulles International Airport.

We conducted fieldwork between December 2004 and March 2005 under
the authority of the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. A listing
of the major contributors to this report is included as Appendix B.




    Review of TSA’s Use of Pat-downs in Screening Procedures
                            Page 8
                Appendix B
                Major Contributors To This Report




Major Contributors to This Report
                Alexander Best, Director, Transportation Security Audit Division
                Lynn Richardson, Audit Manager
                Eno Ukih, Auditor-In-Charge
                Mark Phillips, Auditor




                    Review of TSA’s Use of Pat-downs in Screening Procedures
                                            Page 9
                 Appendix C
                 Report Distribution




Report Distribution
                 Department of Homeland Security
                 Secretary
                 Deputy Secretary
                 Chief of Staff
                 General Counsel
                 Executive Secretariat
                 Assistant Secretary, Policy
                 Assistant Secretary, Public Affairs
                 Office of Legislative Affairs
                 Under Secretary, Border and Transportation Security
                 Assistant Secretary, TSA
                 Chief Operating Officer, TSA
                 DHS OIG Liaison
                 TSA Audit Liaison

                 Office of Management and Budget
                 Chief, Homeland Security Branch
                 DHS OIG Budget Examiner

                 Congress
                 Congressional Oversight and Appropriations Committees as Appropriate




                      Review of TSA’s Use of Pat-downs in Screening Procedures
                                             Page 10
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
